INACTIVE OBLIGATIONS
    Maritime Administration

  Report Number: FI-2004-099
Date Issued: September 30, 2004
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Inactive Obligations,                                        Date:    September 30, 2004
           Maritime Administration
           FI-2004-099

  From:                                                                                Reply to
                                                                                       Attn. of:   JA-20
           Alexis M. Stefani
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Maritime Administrator

           This report presents the results of our audit of inactive obligations at the Maritime
           Administration (MARAD). An “obligation” represents a liability that is created
           when an agency enters into a binding legal agreement, such as a loan guarantee.

           The head of each agency is required to certify annually to the Department of the
           Treasury that obligated amounts are accurate and continue to represent valid
           liabilities. The success of efforts by MARAD to ensure that obligated amounts
           continue to represent valid liabilities is a critical measure of the effectiveness of its
           financial management practices. When unneeded obligations are identified, the
           funds can be deobligated and reapplied to other projects.

           In September 1999, we issued an audit report on the Department of Transportation
           (DOT) inactive obligations,1 which included MARAD obligations. We identified
           unneeded obligations as a significant problem in MARAD, as well as in the rest of
           DOT. Responding to the report, MARAD deobligated $107 million of funds that
           were no longer needed and implemented a procedure to perform periodic reviews
           of inactive obligations.

           This report assesses the effectiveness of MARAD’s corrective actions since that
           audit report. Our audit objective was to determine whether MARAD’s inactive
           obligations represent valid financial liabilities or can be used on other projects.

           1
               Office of Inspector General (OIG) Report FE-1999-131, “Inactive Obligations,” September 27, 1999. OIG reports
               can be accessed on our website: www.oig.dot.gov.
                                                                                                     2


We performed the audit in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States.

MARAD records show that about $321 million was obligated for contracts,
cooperative agreements, and loans as of December 31, 2002. We identified
212 obligations totaling $36.2 million that had had no activity within 18 months.
To complete this audit, we reviewed loan documentation, cooperative agreements,
and contracts and discussed the status of the obligations with responsible MARAD
officials. Exhibit A further describes our audit scope and methodology.

Other financial management practices of MARAD have come under close
scrutiny. In a March 27, 2003 report,2 we found MARAD’s Title XI Loan
Guarantee Program (Title XI) needed more effective oversight of the
loan-application process, borrowers, vessels and shipyards constructed under loan
guarantees, and foreclosed assets. Under Title XI of the Merchant Marine Act of
1936, as amended, MARAD’s Office of Ship Financing guarantees loans to assist
private companies (primarily shipbuilders and vessel owners) to obtain financing
for ship construction and shipyard modernization projects. We recommended that
MARAD improve administration and oversight over all phases of the Title XI loan
process. In 2003, Congress appropriated $25 million to MARAD for new Title XI
loan guarantees. However, Congress requires us to certify to the House and
Senate Committees on Appropriations that MARAD has satisfactorily
implemented the recommendations to improve administration and oversight of the
Title XI program set forth in our 2003 report. Our follow-up report, “Audit of
Title XI Loan Guarantee Program,” updates MARAD’s efforts in improving the
administration and oversight of the Title XI program.3


RESULTS IN BRIEF
We found that MARAD had implemented an effective program to monitor and
liquidate unneeded inactive obligations except for the obligations related to the
Title XI. MARAD made significant progress in reducing the number of inactive
obligations since our September 1999 audit report. The number of obligations
with no activity for 18 months declined more than 80 percent, from 1,246 in
March 1999 to 212 in December 2002.

However, this audit identified $24.4 million in inactive obligations that did not
represent valid financial liabilities. Over 99 percent of the unneeded funds
($24 million) were for Title XI loan guarantee obligations. The loan guarantee

2
    OIG Report Number CR-2003-031, “Audit of Title XI Loan Guarantee Program, Maritime Administration,”
    March 27, 2003.
3
    OIG Report Number CR-2004-095, “Audit of Title XI Loan Guarantee Program, Maritime Administration,”
    September 29, 2004.
                                                                                  3


obligations were no longer needed because the loans were never made. These
unneeded obligations were associated with a bankrupt ship builder and canceled
ship financing projects. Once deobligated, these funds can be reapplied to other
loan guarantees after Office of Management and Budget approval.

When MARAD approves the loan guarantee application, it issues a Letter
Commitment, documenting its agreement to guarantee the loan subject to certain
conditions. At that point, MARAD obligates funds to cover the potential cost the
Federal Government would incur if the loan applicant defaults. The potential cost
to the Government equals the present value of the difference between the
Government’s payment to a commercial lender and any assets received from the
borrower. Once a commercial lender makes the loan, MARAD guarantees
payment if the vessel owner defaults.

We reviewed $20.2 million of loan guarantee obligations and determined that five
projects, valued at $19.6 million, were unneeded. Responding to these findings,
MARAD officials agreed that the obligations were no longer needed and
deobligated the funds. MARAD officials also reviewed all other outstanding
Title XI obligations and deobligated $4.5 million for another project that had been
canceled. The remaining $363,000 was associated with contracts and interagency
agreements not under the Title XI program.

Unneeded Title XI obligations were not identified and deobligated by MARAD
because (1) the Title XI obligations did not receive the same monitoring as
obligations from other MARAD offices, and (2) the Office of Ship Financing had
not established its own process to review all open Letter Commitments to
determine if any of the obligations should be canceled.

The process other MARAD offices use to identify unneeded obligations relies on a
listing of inactive obligations generated by MARAD’s Office of Accounting. The
Office of Accounting prepares reports listing inactive obligations and distributes
these reports to the respective program offices for review. These reports identify
obligations that have had no activity for at least 12 months, but the reports are
limited to appropriations with a 1-year authority to obligate funds. Because the
Title XI appropriations do not contain the 1-year obligation limitation, Title XI
loan guarantee obligations are not included in the reports. As a result, no Title XI
inactive obligation reports were provided to the Office of Ship Financing for
review.

The Office of Ship Financing also had not established a separate process to review
its outstanding obligations prior to our audit. Each Letter Commitment states that
if a loan closing has not been held within a specified time, the Letter Commitment
may be terminated at the option of the Secretary of Transportation. However, the
Office of Ship Financing had not instituted a process to periodically review the
                                                                              4


status of outstanding loan commitments to determine whether they were still
needed. For example,

• MARAD maintained a $10.7 million obligation for 21 months after the loan
  applicant filed for bankruptcy. In April 1999, MARAD issued a Letter
  Commitment for the financing of two cruise ships, but the parent company
  filed for bankruptcy in October 2001. When we discussed the circumstances
  with MARAD officials in July 2003, they agreed the funds were no longer
  needed and deobligated the $10.7 million.

• In March 1998, MARAD approved a Title XI Letter Commitment for a
  $5.0 million obligation to build two barge-mounted power plants. During our
  review and based on discussions with Office of Ship Financing, MARAD
  determined the loan would not be made and, therefore, that the obligation was
  no longer needed. In September 2003, the Letter Commitment was terminated
  and the funds were deobligated in October.

To reduce unneeded obligations, MARAD needs to ensure more aggressive
financial management steps are taken by the Title XI Program Office. We are
recommending that the MARAD Administrator direct the Office of Accounting to
review justifications for all open Letter Commitment obligations annually and
deobligate funds associated with loan commitments that are no longer needed.

On September 29, 2004, MARAD provided written comments (see Appendix) to
our September 8, 2004 draft report. The MARAD Administrator agreed that our
recommendation can provide a more formalized approach to deobligate funds. He
stated he would direct the appropriate offices to develop, within 30 days, the
necessary procedures to implement the recommendation.

We consider MARAD’s action to be responsive to our recommendation.


FINDING AND RECOMMENDATION
MARAD has implemented an effective financial management program to monitor
and liquidate unneeded inactive obligations, except for the Title XI Loan
Guarantee Program. This audit identified $24.4 million of unneeded obligations,
of which $24 million was for Title XI obligations.

By comparing data presented in our September 1999 audit report to our current
report, Table 1 illustrates MARAD’s successful continuing efforts to reduce
unneeded obligations. The number of inactive obligations with no activity for at
least 18 months has declined by more than 80 percent, from 1,246 on March 31,
1999, to 212 on December 31, 2002. During the same period, the amount of
                                                                                 5


unneeded obligations declined by more than 75 percent from $107 million to
$24 million. These significant reductions occurred while the total dollar amount
of obligations increased by $22 million, or 7 percent.

Table 1. Comparison of Recorded Obligations on March 31, 1999
                   and December 31, 2002

                  Date          Total       Number of      Unneeded
                             Obligations     Inactive     Obligations
                              (Millions)    Obligations   Deobligated
                                                           (Millions)


                 3/31/1999           $299        1,246           $107

                12/31/2002           $321          212            $24




Title XI Obligations Were Not Reviewed
Unneeded Title XI obligations were not identified and deobligated by MARAD
because (1) the Title XI obligations did not receive the same monitoring as the
obligations of other MARAD program offices, and (2) the Office of Ship
Financing had not established its own process to review all open Letter
Commitments to determine if any of the obligations should be canceled.

The process other MARAD program offices use to identify unneeded obligations
relies on a listing of inactive obligations generated by MARAD’s Office of
Accounting.      The Office of Accounting prepares reports listing inactive
obligations and distributes these reports to the respective program offices for
review. These reports identify obligations with no activity for at least 12 months,
but the reports are limited to appropriations with a 1-year authority to obligate
funds. Because the Title XI appropriations do not contain the 1-year obligation
limitation, their loan guarantee obligations are not included in the reports. As a
result, no Title XI inactive obligation reports were provided to the Office of Ship
Financing for review.

The Office of Ship Financing had not implemented a process to review its open
Letter Commitments and corresponding obligations prior to our audit. We found
no open Letter Commitments were canceled and no funds were deobligated during
fiscal year (FY) 2001 and FY 2002. Also, no open Letter Commitments were
canceled in FY 2003 until our audit began in May 2003. At that time, the Title XI
program had 10 outstanding obligations valued at $46.6 million. Its outstanding
obligations were reduced by $24 million based on the results of our audit.
                                                                                  6


Letter Commitments contain specific conditions for loan applicants. When the
loan application is approved, a Letter Commitment to guarantee the obligation is
issued, stating the requirements necessary for closing the loan. Each Letter
Commitment provides that if a loan closing has not been held within a specified
time, the Letter Commitment may be terminated at the option of the Secretary of
Transportation. Upon loan closing, the loan is issued to the applicant (e.g., vessel
owner), and MARAD guarantees payment to a commercial lender in the event of
default by the borrower.

MARAD’s Title XI loan guarantee obligations remained open because loan
closings never occurred and the loans were not made. For example, MARAD
approved the Western Power, USA, LLC and Astro Offshore Corporation projects
for over 5 years before confirming in September 2003 these loans would not be
issued. Table 2 shows a listing of unneeded inactive obligations we identified.


         Table 2. Unneeded Inactive Guarantee Loan Projects
         Company                Project        MARAD          Unneeded
                                             Approval Date   Obligations
                                                             Deobligated
                                                              (Millions)

Project America II, Inc.   Cruise ship         04/08/99          $10.7
Western Power, U.S.A., Two power               03/19/98             5.0
LLC                    barges

Kvaerner Shipholding,      Container ship      04/13/01             2.0
Inc.
Torch Deepwater, Inc.      Multi-purpose       04/08/99             1.0
                           support vessel
Astro Offshore             Platform supply     09/18/98             0.9
Corporation                vessel
 Total                                                           $19.6
                                                                                  7


RECOMMENDATION
We recommend that the MARAD Administrator direct the Office of Accounting
to review justifications for all open Letter Commitment obligations annually and
deobligate funds associated with loan commitments that are no longer needed.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
In his September 29, 2004 written comments (see Appendix), the MARAD
Administrator agreed that our recommendation can provide a more formalized
approach to deobligate funds. He stated he would direct the appropriate offices to
develop, within 30 days, the necessary procedures to implement the
recommendation. He also indicated that this recommendation will complement
the ongoing efforts to improve the administration of the Title XI program.


ACTION REQUIRED
The actions taken and planned by MARAD are reasonable. Therefore, we
consider the recommendation resolved subject to follow-up requirements in
Department of Transportation Order 8000.1C. We would appreciate receiving a
copy of the procedures when they are completed.

We appreciate the courtesies and cooperation of Maritime Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or Theodore Alves, Assistant Inspector General
for Financial and Information Technology Audits, at (202) 366-1496.

                                         #
                                                                                  8




EXHIBIT A. SCOPE AND METHODOLOGY
MARAD records show that about $321 million was obligated for contracts,
cooperative agreements, and loans as of December 31, 2002. To determine the
validity of inactive obligations and consistent with our prior audits, we identified
obligations with no activity for 18 months and tested MARAD’s compliance with
the DOT policy for validating obligations. Using computer inquiries of the
Departmental Accounting and Financial Information System, we identified
212 inactive obligations totaling $36.2 million with no activity for at least
18 months.

The objective of this audit was to determine if MARAD’s inactive obligations
represented valid financial liabilities. For our review, we selected from the
Departmental Accounting and Financial Information System report inactive
obligations of $50,000 and over, which totaled $35.5 million. To complete this
audit, we interviewed MARAD program officials and legal counsel and reviewed
loan documentation, cooperative agreements, and contracts.

We performed the audit in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts. Our audit was conducted at MARAD Headquarters in Washington,
DC, from May 2003 to March 2004.




Exhibit A. Scope and Methodology
                                                               9




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  Ron Brown                            Project Manager

  Mark Rielly                          Senior Auditor

  Brian Greene                         Auditor




Exhibit B. Major Contributors to This ReportExhibit B. Major
Contributors to This Report
                                 10




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comment s
